<html>
<title> - ADDICTIVE GAMBLING</title>
<body><pre>[Senate Hearing 106-407]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-407
 
                           ADDICTIVE GAMBLING

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations



                               <snowflake>



 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate
                                 ______
                     U.S. GOVERNMENT PRINTING OFFICE
61-418cc                     WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                           ISBN 0-16-060332-3



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Labor, Health and Human Services, and Education, and 
                            Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
JON KYL, Arizona                     DIANNE FEINSTEIN, California
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)

                           Professional Staff

                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                               Aura Dunn
                        Ellen Murray (Minority)

                         Administrative Support

                             Kevin Johnson
                       Carole Geagley (Minority)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Hon. Frank R. Wolf, U.S. Representative from 
  Virginia.......................................................     1
Opening statement of Senator Arlen Specter.......................     1
Opening statement of Senator Harry Reid..........................     2
Summary statement of Hon. Frank R. Wolf..........................     3
Prepared statement of Hon. Frank R. Wolf.........................     6
Statement of Steven E. Hyman, M.D., Director, National Institute 
  of Mental Health, National Institutes of Health, Department of 
  Health and Human Services......................................     8
Opening statement of Senator Dianne Feinstein....................     9
Summary statement of Dr. Steven E. Hyman.........................     9
Research areas...................................................    10
Prepared statement of Dr. Steven E. Hyman........................    11
Statement of Leo T. McCarthy, Commissioner, National Gambling 
  Impact Study Commission........................................    14
Statement of Ken Winters, Ph.D., Director, Center for Adolescent 
  Substance Abuse and Associate Professor of Psychiatry, 
  University of Minnesota........................................    16
Statement of Timothy A. Kelly, Ph.D., Executive Director, 
  National Gambling Impact Study Commission......................    18
Statement of Leonard H. Tose, Philadelphia, PA...................    19
Impact on impoverished neighborhoods.............................    21
Personal responsibility..........................................    27



                           ADDICTIVE GAMBLING

                              ----------                              


                        WEDNESDAY, JUNE 30, 1999

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Gorton, Reid, and Feinstein.
STATEMENT OF HON. FRANK R. WOLF, U.S. REPRESENATIVE 
            FROM VIRGINIA


               opening statement of senator arlen specter


    Senator Specter. Good morning, ladies and gentlemen. The 
hearing of the Appropriations Subcommittee on Labor, Health and 
Human Services, and Education will now proceed.
    We will be focusing this morning on the subject of 
addictive gambling. This follows a report which has just been 
completed by the National Gambling Impact Study Commission. Our 
first witness is the distinguished Member of the House of 
Representatives from Virginia, Hon. Frank Wolf.
    The Commission study has raised very important questions in 
many directions. One of those questions is the issue of 
pathological addiction as we prepare for the subcommittee a 
bill which funds the National Institutes of Health as a matter 
of very substantial concern as to what kind of attention the 
National Institute of Mental Health ought to be directing at 
this very important problem. NIH has been in the field to an 
extent in the past. With the impact of the Commission's report, 
there is obviously a large area to be considered.
    The subject is as current as today's headlines. The 
Philadelphia Enquirer this morning has a front-page story, 
which focuses on the very heavy impact of gambling, as the 
Enquirer puts it, and their contributions to candidates for 
elective office.
    This morning's Washington Post has an editorial, citing our 
first witness, Congressman Wolf. This business last year made 
more than $50 billion in profits. What business contributed 
more than $13 million to political campaigns, both Republicans 
and Democrats? What business in America spent $600 billion--
more than clothes or cars or groceries? There is a responsive 
op ed piece by Mr. Frank Fahrenkopf, the CEO of the American 
Gaming Association, challenging a good many of those 
conclusions, and asserting a very different point of view.
    Our focus is going to be on the pathological aspect and 
what the National Institute of Mental Health ought to be doing. 
But obviously we will be considering a wider variety of issues, 
as well, necessarily.
    I would turn now to Senator Reid.


                opening statement of senator harry reid


    Senator Reid. Thank you, Mr. Chairman. I appreciate your 
taking the time to hold this hearing on this issue.
    Prior to coming to the Congress, I served for 4 years as 
chairman of the Nevada State Gaming Commission, which is a 
regulatory arm for Nevada gambling. Mr. Chairman, Nevada has a 
very stringent regulatory structure. I think that structure 
speaks to the responsibilities and obligations of the industry.
    I think, though, that we have to put this hearing today in 
its proper perspective, as I am sure we will. I, first of all, 
express my appreciation to all those individuals who served on 
the National Gambling Impact Study Commission. They took weeks 
of their time, and donated it to this study, for which I am 
grateful they took time away from their regular jobs and took a 
great deal of their time. I am grateful to them for that.
    We have today testifying one of those individuals, Leo 
McCarthy, who served honorably in various elective capacities, 
from the State of California. Anyway, I appreciate his time and 
all the others.
    But, Mr. Chairman, the State of Nevada has spent about $7 
million in the last couple of years to study the problem of 
gambling, those who have problems gambling. The gaming 
industry's effort to address the issue of pathological gambling 
I think is to be commended. But I would like to discuss for 
just a short time that there are some societal issues that are 
left unspoken in the current discussion on the problem of 
gambling. We hear a great deal about the need for greater 
emphasis for family values in our public discourse. I think we 
have to look at one of the cornerstones of the American family 
is personal responsibility.
    I, for example, have trouble--as you know, Mr. Chairman, 
you have been involved in the debate dealing with bankruptcy--I 
have trouble telling someone--or allowing someone, I should 
say--who goes out and runs up a debt, saying that you do not 
have to pay that because your credit was too easy to obtain. I 
think, if somebody runs up a debt, they should have to pay it.
    I think that I do not agree with those who say that because 
credit is easy to obtain, that they should not have to repay 
the money they borrowed. I think we have to look--these people 
are called shopaholics, they are addicted to buying things. 
That does not take away from their responsibility to pay for 
the things that they buy.
    I want to make sure that in this discussion of gambling 
that we are not making excuses for people who look at gambling 
as a way of entertainment. I think that we too often today look 
at a culture of victimization surrounding bad behavior. I was 
stunned yesterday by reading in the paper a woman who killed 
eight of her babies--eight of her babies. She was given 
probation. She murdered eight of her children and she was given 
probation. That is a little hard for me to accept.
    I want to make sure that in our discussion that we have 
with problem gamblers that we separate those who have a real 
problem with compulsive--I should say pathological--gambling to 
those who have problems comparable to those people who are 
shopaholics. People should be held responsible for the things 
they do. I think that, Mr. Chairman, as long as we understand 
that the majority of people who walk into casinos do that for 
the enjoyment they derive from being entertained, in effect, in 
these casinos. They know when they walk in that some win, some 
lose. I think most recognize that most lose.
    I think when we start trying to make excuses for the losses 
that they take, that we are doing just that--making excuses. I 
certainly want to participate in anything that is done 
constructive to see what we can do if there is gambling 
addiction of some sort. I am happy to do that. But I want to 
make sure that we separate personal responsibility from those 
problems of true problem gambling.
    I think we need to move to be less afraid to address issues 
of family values in our public discourse. I think this is part 
of that debate.
    Senator Specter. Well, thank you very much, Senator Reid.


                summary statement of hon. frank r. wolf


    The impact of gambling, of course, is pervasive and very 
extensive. The Pennsylvania State Senate is taking up today the 
question of legalized gambling, as more and more people look to 
gambling as a source of revenue. The impact is enormous, with 
the dollar volume of gambling, and the social implications are 
enormous. We will try to put them all in context.
    Congressman Wolf, thank you very much for joining us today.
    Congressman Wolf has served Virginia's 10th Congressional 
District since 1981. He is a member of the House Appropriations 
Committee, Chairman of the Subcommittee on Transportation, 
introduced and passed into law the legislation establishing the 
National Gambling Impact Study Commission. Among his many 
outstanding credits is the fact that he is a Philadelphian, 
transplanted to Virginia, and a very active and able member of 
the U.S. Congress.
    Welcome. Congressman Wolf, the floor is yours.
    Mr. Wolf. Good morning, Chairman Specter, and my friend, 
Harry Reid. I appreciate this opportunity to testify on 
gambling addiction and the important research recommendations 
of the National Gambling Impact Study Commission.
    Senator Specter, I want to thank you for holding this 
hearing in a timely fashion, to give those concerned a chance 
to speak about the explosion of gambling in America and the 
importance of a comprehensive and objective--and I stress the 
word ``objective''--research on this issue. Americans now wager 
about $600 billion a year, which is more than is spent on 
groceries. In 1992, it was $329 billion a year. In 1974, it was 
just $17 billion. That is a staggering increase of 3,500 
percent over just a short 25 years.
    The Gambling Commission noted in its report, and I quote: 
``With little stretch of the imagination, it is conceivable 
that some day gambling enterprises may be franchised and, at 
least in parts of the country, become as common as fast food 
outlets are today.''
    As the Gambling Commission reports, gambling today is not 
just a harmless family entertainment. Millions of people have 
become addicted to gambling and have brought suffering to 
themselves, but also to their families. It is clear that before 
gambling gets the green light on Main Street America, careful 
consideration must be given to its impact.
    We now know some very troubling facts about gambling and 
addiction. In Chapter 4.1 of the report--and I will read it--it 
says: ``A 1997 meta-analysis of literature on problem and 
pathological gambling prevalence, the Harvard Medical School 
Division on Addiction, using past-year measures, estimated that 
at that time there were 7.5 million American adult problem and 
pathological gamblers; 5.3 million problem, and 2.2 million 
pathological.'' The study also estimated that there were 7.9 
million American adolescent problem and pathological gamblers; 
5.7 million problem and 2.2 million pathological gamblers.
    That is more than 15 million people having difficulty with 
gambling. Over half of them are our kids.
    Rather than going into a lot of statistics, let me put it 
this way. There are currently more adult and adolescent problem 
and pathological gamblers in America than people residing in 
New York City. There are six times as many adolescent problem 
or pathological gamblers in America than men and women actively 
serving in our combined armed forces, the Army, the Navy, the 
Marine Corps, and the Air Force.
    Again, 7.9 million adolescents have a gambling problem. 
That means that our Nation's youth is disproportionately 
impacted by gambling.
    One important research element has yet to be addressed, and 
I am hopeful the appropriate research agency will look into, is 
the number of at-risk youth in America, and what is it. If 
America continues on the path of bringing more and more 
gambling into cities and towns across the country, what does 
this mean for our youth population? Is there not an obligation, 
as public officials in the Congress, to know what is going on?
    In the report, there is an analysis where they talk about 
some of the harm. They talk about it under suicide. 
Commissioners heard repeated testimony about suicide and 
attempted suicide on the part of compulsive gamblers. In 
Atlantic City, the Commission heard about a 16-year-old boy who 
attempted suicide after losing $6,000 on lottery tickets. The 
NCAA has important material, which I will not take the time of 
the committee, in the Commission report, and does also talk and 
is very, very concerned about this problem with regard to young 
people.
    There is another reason your hearing today is so important 
and so helpful. I think it is important that the Gambling 
Commission report, which illustrates an alarming problem, a 
pathological gambling rate among our Nation's youth, was 
approved by a unanimous vote from a panel representing all 
sides. This may be the issue that both sides can come together 
on, because it was a unanimous vote on all sides of the issue.
    Even those in the gambling business recognize that there is 
a problem. Also, a majority of the Commission called for a 
pause, or a moratorium, or what I would characterize as a 
cease-fire, on further gambling expansion until more is known 
about its effects on families and communities. They are saying 
that we need to look deeper, as gambling continues to spread 
and becomes more commonplace. They asked for time for 
policymakers to consider this matter, as you are--and I commend 
you--doing today.
    Also very telling is that after the Commission's 2-year 
study of gambling in America, they had only scratched the 
surface in uncovering the actions and consequences of the 
Nation's fastest-growing industry. Quite frankly, I am not 
surprised. The reason I became involved with the gambling study 
was based on my own experience in trying to find a 
comprehensive, objective view on gambling.
    In 1994, there was an effort to bring riverboat gambling to 
my home State of Virginia. I watched the lobbying effort, the 
political process in the State capital from a distance and, 
over a time, became convinced that the gambling industry was 
offering something that was not good for the State of Virginia. 
But yet it was very, very difficult--there were many lobbyists 
coming in and telling the things that it may very well do, but 
no lobbyists talking for the moms and the dads and the young 
people.
    As a result of this, I concluded that a thorough review was 
called for. But when I looked, there were no good answers to 
any of the questions. There was relatively little objective 
information available. What I found, however, were studies 
conducted by the gambling industry and for the gambling 
industry, which seemed to support all of their claims, in 
glossies and brochures and advertisements. The Gambling 
Commission report is a revealing and a valuable resource for 
any concerned American. However, it should not be mistaken as a 
peer-reviewed, comprehensive and long-term report on the 
problem of pathological gambling in America.
    The research that is needed is outlined in Chapter 8 of the 
report, which I am sure Mr. McCarthy will cover, and was 
directed in large part to the National Institutes of Health and 
the Department of Health and Human Services. The purpose of the 
proposed research is to determine in an objective manner the 
extent of the problem of pathological and problem gambling and 
what can be done to avoid what some call a growing addiction to 
gambling by people of all ages.
    On this critical issue, only limited information is 
currently available. It should be noted that the research 
recommendations of the Gambling Commission report was also 
approved on a unanimous vote, with all the commissioners voting 
in favor of this ground-breaking research.
    I strongly urge the committee to heed the wisdom of the 
Gambling Study Commission and provide the support for further 
research they recommended. The American people I think would 
like to know all the facts about gambling before making this 
decision to allow gambling to come into their community. They 
deserve to know the full extent of the problem of pathological 
gambling as well as what can be done about it.
    There are already an alarming number of problem and 
pathological gamblers in America--over 15 million by one of the 
most conservative estimates. What is going to happen if 
gambling becomes more prevalent, more common and more 
available? That is one question we should ask NIH and HHS to 
answer.

                           prepared statement

    With that, Senator, I just again thank you for the 
opportunity to testify. I want to follow up on what Senator 
Reid said. I want to thank all of the panelists on the 
Commission that came together and spent a lot of time coming 
out with a pretty good read.
    Senator Specter. Congressman Wolf, we thank you for your 
testimony. We thank you for your leadership in the field.
    [The statement follows:]
                Prepared Statement of Hon. Frank R. Wolf
    Good morning. Chairman Specter, I appreciate this opportunity to 
testify on gambling addiction and the important research 
recommendations of the National Gambling Impact Study Commission 
(NGISC). As many of you know, I was the House sponsor of the 
legislation which created the commission. I have followed the 
commission's work and seen the recommendations recently released.
    Chairman Specter, thank you for holding this hearing in a timely 
fashion to give those concerned a chance to speak about the explosion 
of gambling in America and the importance of comprehensive and 
objective research on this issue.
    Americans now wager about $600 billion a year, which is more than 
is spent on groceries. In 1992 it was $329 billion a year. In 1974 it 
was just $17 billion. That is a staggering increase of 3,500 percent 
over 25 years. And the gambling commission noted in its report that 
``with little stretch of the imagination, it is conceivable that, some 
day, gambling enterprises may be franchised and, at least, parts of the 
county, become as common as fast food outlets are today.''
    As the gambling commission reports, gambling today is not just 
harmless family entertainment. Millions of people have become addicted 
to gambling and brought suffering to themselves and their families. It 
is clear that before gambling gets the green light on ``man street'' 
America, careful consideration must be given to its impact.
    We now know some very real and troubling facts about gambling and 
addiction. According to the gambling commission report: ``[in] 1997 . . 
. the Harvard Medical School Division on Addictions . . . estimated at 
that time that there were 7.5 million American adult problem and 
pathological gamblers [and] 7.9 million American adolescent problem and 
pathological gamblers.''
    That is more than 15 million people having difficulty with gambling 
and over half of them are kids.
    Rather than going into a lot of statistics, let me put it this way: 
there are currently more adult and adolescent problem and pathological 
gamblers in America than people residing in New York City; there are 
six times as many adolescent problem or pathological gamblers in 
America than men and women actively serving in our combined armed 
forces--the Army, Navy, Marine Corps, and Air Force.
    Again--7.9 million adolescents have a gambling problem. That means 
our nation's youth is disproportionately impacted by gambling. One 
important research element as yet to be addressed, and I am hopeful the 
appropriate research agency will look into, is the number of ``at-
risk'' youth in America. If America continues on the path of bringing 
more and more gambling to cities and towns across the country, what 
does this mean for our youth population? Is there not an obligation as 
public officials to know what is going on?
    That is another reason your hearing today is so important and so 
helpful.
    I think it is important that the gambling commission report which 
illustrates an alarming problem and pathological gambling rate among 
our nation's youth, was approved on a unanimous vote from a panel 
representing all sides of the issue.
    Even those in the gambling business recognize that there is a 
problem. Also a majority of the commission called for a ``pause'' or 
moratorium, or what I'd characterize as a cease fire, on further 
gambling expansion until more is known about its effects on families 
and communities. They are saying that we need to look deeper as 
gambling continues to spread and becomes more common place. They asked 
for time for policymakers to consider this matter, as you are doing 
today.
    Also very telling is that after the commission's two-year study of 
gambling in America, they had only scratched the surface in uncovering 
the actions and consequences of the nation's fastest growing industry. 
Quite frankly, I am not surprised. The reason I became involved with a 
gambling study was based on nay own experience in trying to find 
comprehensive and objective information on gambling.
    In 1994, there was a strong effort to bring river boat gambling to 
my home state of Virginia. I watched the lobbying effort and the 
political process in Richmond from a distance and, over time, became 
convinced that the gambling industry was offering something that was 
not good for Virginia.
    When all was said and done, casino and river boat interests spent 
over a million dollars on well connected and lobbyists from both 
political parties. Gambling proponents hold the record for lobbying 
expenses in Virginia and they could afford it. Gambling profits are in 
the billions of dollars. But who lobbies for the family living down the 
street from the new betting parlor . . . or the high school kids that 
pass by video poker machines in corner convenient stores--or the moms 
and dads that have to worry about what there child is doing when they 
are out of the home?
    I concluded a thorough review was called for. But when I looked, 
there were no good answers to my questions. There was relatively little 
objective information available.
    What I did find, however, were studies conducted by the gambling 
industry and, for the gambling industry, which seemed to support all of 
their claims  glossy and brochures and advertisements.
    The gambling commission report is a revealing and invaluable 
resource for any concerned American. However, it should not be mistaken 
for a peer-reviewed, comprehensive, and long-term report on problem and 
pathological gambling in America. The research that is needed is 
outlined in chapter eight of the report, and was directed in large part 
to the National Institutes of Health and the Department of Health and 
Human Services. The purpose of the proposed research is to determine 
the extent of problem and pathological gambling and what can be done to 
help avoid what some call a growing addiction to gambling by people of 
all ages. Believe it or not, on this critical issue only limited 
information is currently available.
    It should be noted that the research recommendations of the 
gambling commission report were also approved on a unanimous vote with 
all the commissioners voting in favor of this ground-breaking research.
    I strongly urge the committee to heed the wisdom of the National 
Gambling Impact Study Commission and provide the support for the 
further research they recommended. The American people deserve to know 
all the facts about gambling before making the decision to allow 
gambling in their community. They deserve to know the full extent of 
problem and pathological gambling, as well as what can be done about 
it.
    There is already an alarming number of problem and pathological 
gamblers in American--over 15 million by one of the most conservative 
estimates. What is going to happen if gambling becomes more prevalent, 
more common, and more available? That is one question we should ask NIH 
and HHS to answer.
    I again thank you, Chairman Specter, for holding this hearing and 
providing me the opportunity to testify. I will be happy to answer any 
questions.

    Senator Specter. As you know, our custom is not to 
question, at least at any length, the members who appear here. 
We have a very distinguished group of panelists who are going 
to be coming up, a long hearing schedule, and the Senators on 
the subcommittee also have many, many other duties. So unless 
there is some pressing question, we are going to thank you for 
your appearance here today, and we look forward to working with 
you.
    Senator Reid. Mr. Chairman, if I could just say one thing. 
This may surprise the people in Nevada, but I live inside the 
Beltway, in McLean, which is in Congressman Wolf's district. 
So, even though my permanent residence is in Searchlight, 
Nevada, my partial residence when I am in Washington is in the 
district of the great friend of Nevada gambling, Frank Wolf.
    Mr. Wolf. Well, I would say to the Senator, in answer to 
that, I do consider you a good friend.
    Senator Reid. I hope so.
    Mr. Wolf. Second, if you will also look at the 
appropriation bills, I have been very, very sympathetic to the 
people of Nevada. During the term that I have been chairman of 
the House Appropriations Committee, Nevada has done very, very 
well with regard to transportation.
    Senator Reid. We have reciprocated, too.
    Mr. Wolf. So I appreciate your friendship and your 
compliment. It is accurate. I have been your friend. I have 
been a friend because you have had a lot of transportation 
improvements that you would not have had if I did not serve. I 
appreciate that very, very much.
    Senator Reid. But also, Frank, we have reciprocated. We 
have taken good care of Northern Virginia, my second home.
    Mr. Wolf. Well, I appreciate that. Harry, you know, in this 
business, sometimes people say ``my friend,'' and it is in 
sarcasm. I do consider you a friend. We have not personalized 
this.
    Senator, as you know, we have never made a negative comment 
about other people. We are not in the business of attacking 
people. Harry and I have worked together.
    Senator Specter. Back to the subject at hand.
    Mr. Wolf. Yes.
    Senator Specter. Senator Feinstein.
    Senator Feinstein. Yes, if I may. I would just like to 
thank you. Incidentally, you also take good care of California, 
and I appreciate that very much.
    Mr. Wolf. We hope to help you in the mass transit issue.
    Senator Feinstein. I know. I thank you for that.
    But I would really like to thank you for the Commission's 
work, too. Because I think the Commission's recommendation for 
a moratorium is something we should give very strong 
consideration to. I have watched developments in California, 
and I am very concerned about what is happening. You know, the 
reasons, generally, for approval of gambling are economic. Yet, 
increasingly what we see for individuals is economic disaster 
and a kind of new addiction, if you will, that settles in. So I 
think, both in terms of the economic and the social rationale 
for gambling, that you have raised a very important point. That 
is that it is time for this Nation to take stock of where it is 
going with gambling.
    So I want to say thank you very much. I think it was 
courageous and I think this is very important.
    Mr. Wolf. Thank you, Senator Feinstein.
    Senator Reid. Chairman Specter, while I have Congressman 
Wolf and you here--you having such a dramatic impact on what 
goes on, on things relating to the law and the Senate--I think 
it would be great if we took some time to look at illegal 
gambling in the United States. You know, this Commission was 
not allowed to do that. Illegal and unregulated gambling I 
think would be enlightening to everyone.
    Mr. Wolf. Thank you, Senator.
    Senator Specter. Well, I used to spend a lot of time on 
that.
    Mr. Wolf. You did in Philadelphia, sir. I know that. Thank 
you very much, sir.
    Senator Specter. Thank you very much, Congressman Wolf.
STATEMENT OF STEVEN E. HYMAN, M.D., DIRECTOR, NATIONAL 
            INSTITUTE OF MENTAL HEALTH, NATIONAL 
            INSTITUTES OF HEALTH, DEPARTMENT OF HEALTH 
            AND HUMAN SERVICES
    Senator Specter. We are going to call our remaining 
witnesses all together, because the interchange, we find, can 
be very useful. So, if at this time Dr. Steven Hyman would come 
forward, the Hon. Leo T. McCarthy, Dr. Timothy Kelly, and Mr. 
Leonard Tose, and Dr. Kenneth Winters, as well.

             opening statement of Senator Dianne Feinstein

    Let me turn to Senator Feinstein. This would be a good time 
to introduce former Lt. Governor McCarthy.
    Senator Feinstein. I thank you very much, Mr. Chairman, for 
this privilege. I am just delighted to welcome Leo McCarthy to 
Congress. I have known him for close to 30 years now. I have 
watched him. During the 1970's, he was Speaker of the 
California Assembly. He was one of the primary formulators of 
State policy in education, in health, in infrastructure, in the 
environment, and in most of the significant areas of 
California's needs.
    He served as Lt. Governor of California for 12 years, from 
1982 to 1994. During that time he was Chairman of the 
California Commission for Economic Development. In 1995, he 
became president of the Daniel Group, which is a partnership 
engaged in international trade and other business enterprises. 
He was appointed by the Senate Democratic Leadership to the 
nine-member National Gambling Impact Study Commission.
    I might just say, Mr. Chairman, that Mr. McCarthy is one of 
California's most distinguished citizens. As such, I am just 
delighted to welcome him here today.
    Senator Specter. Thank you very much, Senator Feinstein.
    We turn now to Dr. Steven Hyman, the Director of the 
National Institute of Mental Health. Dr. Hyman received his 
B.A. from Yale, a master's from the University of Cambridge, 
and M.D. from the Harvard Medical School. Prior to coming to 
the National Institute of Mental Health, he was Professor of 
Psychiatry at Harvard Medical School, the director of 
Psychiatric Research at Massachusetts General.
    Dr. Hyman, thank you very much for joining us here today. 
All statements will be made a part of the record. As it is our 
custom, the 5-minute green light will go on, with the 1-minute 
yellow warning and then the red stop.
    Dr. Hyman.

                Summary statement of Dr. Steven E. Hyman

    Dr. Hyman. Thank you for inviting me, Chairman Specter, to 
discuss this important problem.
    I want to assure everyone here that NIH, not just the 
National Institute of Mental Health, but also our sister 
institutes, the National Institute on Drug Abuse and the 
National Institute on Alcohol Abuse and Alcoholism, are quite 
interested in this topic. On the other hand, it is true that 
like many mental and behavioral disorders, this problem has 
previously been swept under the rug to some degree, and we now 
find ourselves really starting with a nascent research field in 
the face of an already extremely large problem.
    Let me also say, in response to some of Senator Reid's 
comments, that it is not our goal to medicalize all of human 
behavior. Indeed, treatment for pathological gambling and for 
many addictions requires that people take responsibility for 
themselves. In all of these treatments, people are asked to 
repay their debts.
    I think more to the point, in research from the National 
Institutes of Health, what we really want to focus on is the 
prevention of and treatment of people who really have an 
extreme problem. In particular, there are two classes of 
individuals: those who turn to gambling as they might turn to 
drugs or alcohol, as an illadvised attempt to self-medicate 
untreated depression or loneliness or some other mental 
distress that would be better handled in another kind of 
setting; and, second of all, youth.
    We have become very much aware that there is a large group 
of youth who are risk-taking and thrill-seeking, who are at 
risk for many behaviors, not just pathological gambling, but 
also drug abuse and also for unsafe sexual behaviors that might 
expose them to HIV. We at the National Institute of Mental 
Health are very much involved in understanding these youth risk 
behaviors that can lead to dire health consequences; that is, 
can people get captured in a situation, if it is gambling, 
where they might run up debts that ruin their family, that 
mortgage their ability to go on to higher education, and might 
lead to depression and suicide. So we really are focused, I 
believe, on a serious and pathological situation.
    Now, we welcome the Commission's recommendations. I am 
particularly delighted to see that the Commission was 
interested in the highest quality, peer-reviewed research, even 
though that means that some of the answers that they want might 
be put off for some months or years as this nascent field 
develops, with our encouragement and our technical assistance.

                             research areas

    I would just like to review for you some of the important 
areas that the NIH is interested in with respect to 
pathological gambling. On the one hand, you can see the rich 
opportunities, but on the other, I think you can see that these 
are very elemental questions that we are asking. We are really 
at the very beginnings, and I do not want to disguise that.
    We need to know what are the behavioral and also brain 
mechanisms that explain out of control behavior. Just as we 
might ask, for an alcoholic, why they keep drinking even when 
they have dire medical consequences, they have lost their job 
and their family, we have to ask why is it that somebody who is 
engaged in gambling, who, by a certain point, knows they should 
not be, continues this behavior despite enormous debt, despite 
family disruption, despite missing work.
    Is this, in some cases as I have alluded to, an expression 
of another disorder, such as depression--and we believe in some 
cases it is? Can we really call this an addiction? That is, are 
there shared brain mechanisms--and we can discover this--that 
are very similar to the behaviors that might lead to cocaine 
addiction or tobacco addiction, in the people who really 
develop severe trouble?
    Are there social and cognitive factors that might help? For 
example, posting the real odds of winning or losing and giving 
different educational messages to especially young people. What 
are the predisposing factors? Are there different types of 
pathological gamblers? Might they require different treatments? 
Does risk run in families? Are there genetic predispositions, 
as there are, for example, to other risk-taking behavior, such 
as alcoholism?
    Very important, what is it that occurs in the transition 
from responsible gaming to pathological gambling? That is a 
very analogous question to what occurs in the transition from 
social drinking to severe alcoholism. We have to understand 
those mechanisms if we are going to intervene in an incisive 
way.
    How many people with pathological gambling are also 
involved in other self-destructive behavior, such as drinking 
or drug addiction? The early evidence seems to suggest that 
many of them are, and there may be some shared mechanisms.
    How prevalent is pathological gambling? You have heard from 
the Commission and from some good surveys some preliminary 
results. NIMH is now working to try to answer some of the 
questions posed by Representative Wolf. That is, how many 
youngsters might actually be at risk of pathological gambling? 
It is actually very difficult right now to get these answers, 
but I think it is very important for us to get these data.
    What treatments are effective in preventing and managing 
relapse? We are now funding the first highly successful peer-
reviewed grant in the behavioral treatment of pathological 
gambling, and we look forward to the results.

                           prepared statement

    What is the effectiveness of treatments delivered not only 
in academic health centers but also in clinical and community 
settings? As I said, these questions are strikingly elemental. 
They tell you both where we are scientifically and where we 
need to go. But it is a research agenda that the NIH is 
committed to.
    Thank you very much.
    Senator Specter. Thank you very much, Dr. Hyman.
    [The statement follows:]
               Prepared Statement of Dr. Steven E. Hyman
    Thank you for the opportunity to testify this morning about 
research issues related to pathological gambling. As other testimony 
this morning illustrates compellingly, for those who lose control and 
gamble compulsively, there can be devastating consequences--
professionally and personally.
    As the National Gambling Impact Study Commission recognizes in its 
report, gambling involves an array of policy, scientific, and other 
issues that go well beyond the scientific research focus of the 
National Institute of Mental Health (NIMH) or the National Institutes 
of Health (NIH). I will focus here solely on the issues within our 
scientific domain. We are, of course, open to scientific exchanges with 
other agencies so that tools, methods, and findings of importance are 
widely and quickly shared with those who can benefit from them. In 
fact, it is possible that the broader impacts that problem and 
pathological gambling may have on the health and welfare of 
individuals, families, and communities may suggest the utility of 
developing a more comprehensive approach within the Department of 
Health and Human Services to transform scientific findings into other 
programmatic activity.
    We welcome the Commission's recognition of the importance of peer 
review to ensure that research funded by NIH is of the highest 
scientific value. Science of the highest quality is essential to the 
responsible use of taxpayer funds, to the credibility of the findings, 
and to efficient research progress in addressing all public health 
problems, including compulsive gambling. We also welcome the 
Commission's encouragement of scientific knowledge that could 
contribute to the effective prevention of pathological gambling. Last 
year, NIMH, along with its sister institutes--the National Institute on 
Drug Abuse (NIDA) and the National Institute on Alcoholism and Alcohol 
Abuse (NIAAA)--issued a special Program Announcement (PA) to alert 
investigators of our interest in funding excellent science focused on 
pathological gambling. We are already planning to issue an amendment to 
this PA this year, and we will incorporate into our communications to 
the field the Commission's recommendations for longitudinal research 
regarding the initiation, nature, and course of youth gambling in the 
context of other youth behaviors and factors. We will also incorporate 
the Commission's recommendation for research on risk and protective 
factors for adults' transition to pathological gambling.
    We at NIMH approach pathological gambling--as we do all research on 
pathological behavior and mental illness--in a broad context of basic 
and clinical research spanning multiple disciplines and diverse 
perspectives. We believe that our understanding of pathological 
gambling, like all disorders within our purview, will benefit both from 
research specifically targeted to its diagnosis, prevention, and 
treatment, as well as from a large body of other NIMH basic and 
clinical research that provides a relevant context. That broader body 
of research includes basic behavioral studies on decision-making, risk-
taking, self-control, and compulsive behavior; neurobiological studies 
on how behaviors such as gambling alter brain functioning resulting in 
compulsion and loss of control; clinical studies on mood disorders, 
compulsive behaviors, and the relationship between the two; as well as 
rigorous evaluation of treatments and preventive interventions and 
their delivery in diverse real-world settings. Indeed, as we look 
forward to developing further research on pathological gambling, it is 
important to make sure that this research benefits from knowledge, 
methods, and perspectives in related but more fully developed areas of 
basic and clinical study. These may offer clues to common biological 
and psychological origins, and may suggest some new avenues for 
prevention and treatment.
    We need to understand why certain people seem to be unable to 
control their. behavior. Perhaps the mechanisms involved are the same 
as those involved in better understood mental disorders or in 
addictions to alcohol or drugs of abuse. We need to find these answers 
in order to make real headway in developing a solid scientific 
foundation for understanding, diagnosing, treating, and preventing 
pathological gambling through research of high quality. It is very 
early in the development of research field. Little is now known through 
rigorous research about the underlying biological and psychological 
features of pathological gambling, about developmental risk and 
protective factors, or about its natural course, effective treatments, 
or the prevention of relapse. But what we do know about other 
compulsive behaviors may offer clues.
    The bulk of the NIH research is conducted through grants to 
researchers around the country who submit research applications that 
are rated of high scientific merit through a rigorous scientific peer 
review process. Until this past fall, only a few researchers had 
applied to study pathological gambling. But with increased interest 
shown by the gambling research community, in combination with basic and 
clinical research in related areas, we are beginning to move forward.
    I am very pleased to announce that NIMH is in the process of 
funding a rigorous scientific evaluation of psychosocial treatment for 
pathological gamblers. This research, which received virtually the best 
possible rating of scientific merit in our rigorous scientific peer 
review process, will receive almost $1.2 million in NIMH support over 5 
years. The research plan is to involve 220 pathological gamblers in a 
study determining whether cognitive-behavioral treatment might offer 
therapeutic effects over and above those obtained through Gamblers 
Anonymous, a self-help approach modeled on Alcoholics Anonymous. 
Cognitive-behavioral treatment has been found effective in use for 
various relevant disorders (mood disorder, conduct disorder, 
addictions, obsessions and compulsions) and, in a smaller scale study 
in Canada, with pathological gamblers. Mindful of constraints on 
service funding, the investigator has designed the treatment to be 
administered briefly (in 8 weeks). The effectiveness of providing this 
treatment in groups, with professional leaders, will be compared to 
providing it through a self-help manual. What works best for whom will 
also be determined. This investigator has also developed--with benefit 
of her multidisciplinary training in experimental psychology, 
prevention and addiction treatment--plans for other research concerning 
the treatment of pathological gamblers, and we look forward to her 
additional clinical research contributions.
    Questions about the nature of the underlying mechanisms involved in 
compulsive gambling, and the frequent co-occurrence with substance 
abuse make pathological gambling of interest to other components of 
NIH, such as NIDA and NIAAA. Each of these institutes has funded a 
research grant concerning pathological gambling. NIDA's is concerned 
with pathological gambling as a non-pharmacological addiction, and is 
examining several relevant biological systems for clues to underlying 
factors that could then be targets for intervention. NIAAA's grant 
involves a large survey to explore the relation of substance abuse 
disorders and pathological gambling in the context of community factors 
that include the availability of gambling.
    As stated earlier, in order to stimulate more such research 
applications, NIDA and NIAAA joined with NIMH last summer in issuing a 
Program Announcement (PA) for research on pathological gambling. This 
PA encouraged all disciplines to consider basic, clinical, and services 
research in this area, and provided for a date for receipt of 
applications and a special review group devoted specifically to these 
applications. Consistent with our general experience with research 
grant applications in a relatively new research area, the scientific 
peer review of the first submissions under the PA resulted in no 
applications with ratings of scientific merit in the normally fundable 
range. Many of the applications in response to the PA were very 
promising, and if the applicants adequately address the various 
concerns of the reviewers and resubmit their applications at a later 
date, some may well improve sufficiently in scientific quality to be 
within the fundable range in the next round of review.
    We feel very strongly that funding studies of low or questionable 
scientific quality does not advance the scientific knowledge base and 
is not a responsible use of taxpayers' funds. It is likely that over 
the next several years we will be able to support research studies of 
high scientific merit that will help us understand the roots of 
pathological gambling and offer more effective techniques for its 
prevention and treatment. To this end, NIMH staff provides technical 
assistance to investigators with promising applications. Thus, the 
initial submissions in response to the PA are not lost opportunities, 
but first steps for some on the road to funding.
    NIMH staff have also been encouraging research grant applications 
from interested scientific investigators working in the gambling area 
by conducting a workshop on applying for a grant at the recent 
conference of the National Council on Problem Gambling held just a few 
weeks ago.
    My testimony would not be complete without noting that NIMH also 
contributed financially and scientifically to the National Gambling 
Impact Study Commission's national survey on the social and economic 
costs of gambling. NIMH staff looks forward to examining the final 
report on the survey and its data for possible additional analyses 
concerning the relation of mental health variables to pathological 
gambling.
    Pathological gambling, has complex origins and, like so many other 
disorders examined by NIMH researchers, requires a broad 
multidisciplinary approach. These disciplines span epidemiology, 
genetics, neuroscience, developmental psychopathology, as well as 
behavioral, cognitive, and social science. The kinds of questions we 
are encouraging researchers to answer are these:
    1. For many persons, gambling is an interesting and enjoyable 
activity, with no or minimal adverse effects on their finances, work, 
or relationships with family members and others. But for some people, 
gambling becomes seriously maladaptive and results in major financial 
losses, interferes with work, and disrupts relationships with family 
and others. What explains such ``out of control'' and injurious 
behavior? What are the underlying factors?
    2. Is it primarily a reflection of another disorder (e.g., 
depression) or a nonpharmacological addiction, a result of social-
cognitive factors (e.g., faulty cognitions and reinforcement 
schedules), or a reflection of other factors?
    3. What are the predisposing factors? Are there different types of 
pathological gamblers for which different models are required to 
explain their gambling? Does risk run in families, and perhaps reflect 
the contribution of genes?
    4. What occurs in the transition to pathological gambling at the 
behavioral level and in the brain? What factors influence that 
transition?
    5. To what extent, and in what ways, is alcohol and drug use 
concurrent with pathological gambling? In these cases, is the gambling 
and substance abuse a reflection of common or different factors, and 
what are the nature and interactive effects of pathological gambling 
and substance abuse?
    6. How prevalent is pathological gambling? How is it defined? What 
are the reliability and validity of various definitions?
    7. What strategies are most effective for preventing pathological 
gambling?
    8. For pathological gamblers, what treatments are effective for 
this behavior and for co-occurring disorders and problems, such as the 
risk of suicide?
    9. What treatment models are effective for preventing and managing 
relapse and related problems?
    10. What is the effectiveness of treatments delivered in clinical 
and community settings? These questions are strikingly elemental. They 
tell you both where we are scientifically, and where we need to go. It 
is a difficult research agenda. But we are on our way.
    I would be happy to answer any questions.
STATEMENT OF LEO T. McCARTHY, COMMISSIONER, NATIONAL 
            GAMBLING IMPACT STUDY COMMISSION
    Senator Specter. We turn now to Commissioner Leo T. 
McCarthy, a member of the National Gambling Impact Study 
Commission; president of the Daniel Group, as Senator Feinstein 
has outlined. Commissioner McCarthy was Lt. Governor of 
California until 1994. In the late 1970's, he served as the 
California State Assembly Speaker. He has a very distinguished 
record in public service, on the World Trade Commission, the 
University of California Board of Regents and the California 
State University Board of Trustees.
    Welcome, Governor McCarthy. The floor is yours.
    Mr. McCarthy. Thank you, Mr. Chairman. I am grateful for 
your kind remarks and for those of my old friend, Senator 
Feinstein, and for my friend, Senator Reid, as well.
    I thank you for this invitation to appear, representing our 
Commission. I am accompanied today by our Executive Director, 
Dr. Tim Kelly. Your invitation asked us to address the 
research-related recommendations of the Commission, Chapter 8. 
Chair Kay James asked me to be the primary drafter of those 
recommendations. Of course, I consulted with all my colleagues 
on the Commission, as well as a number of the top researchers 
in the field across the country. So there are many co-authors 
to this, but I will take the blame for any negative aspects.
    What I am addressing is 8 of the 16 research 
recommendations directed by the Commission towards Congress, 
respectfully recommended to the Congress, and an additional one 
to the Department of Labor. Of course, I will try to answer 
questions on any aspect of what we have been doing for the last 
2 years, but I am going to focus on those.
    Let me stress at the outset, Mr. Chairman and members of 
the committee, that these research recommendations were 
unanimously adopted by all nine members of this Commission, 
including the three members that have some close historical 
relationship with the industry itself. By way of background, 
the Congress provided $5 million to the Commission to do its 
work, for which we are grateful. Almost half of that was 
devoted to outside research. We immediately saw the lack of 
research, particularly what I would describe as non-advocacy 
research that all sides could rely upon.
    At the end of the day, even though we had generated some 
very good research, we had added to the meager body of 
knowledge in the field of legal gambling, we knew that there 
were many unanswered questions, as Dr. Hyman has just 
suggested. I am going to quote from a couple of passages of the 
Commission report.
    In past years, Congress initiated research on other 
disorders in effective and visionary ways. The Nation knows far 
more about drug and alcohol abuse because Congress strongly 
supported research that provided indispensable data. Where it 
makes sense, those models should now be followed to understand 
the benefits and costs of legal gambling, including the causes 
and effects of gambling disorders.
    You have already set the model. You have already shown how 
important this kind of research is. Before I get to the 
specific comments on the recommendations, just a bit of the 
background that members of this Commission were looking at 
before they formulated these research recommendations. 
Congressman Wolf referred to the Harvard Medical School 
Division of Addictions: 4.4 million past year adults and 
adolescent pathological gamblers, 11 million adult and 
adolescent problem gamblers; 15.4 million people.
    Our own primary contractor, the National Opinion Research 
Center, came out with higher numbers when they included 
pathological, problem and what they call at-risk. The industry 
disputed the at-risk category. Rather than get into the middle 
of that dispute, let us use the lower numbers. Let us use the 
Harvard study; 15.4 million adults and adolescent problem and 
pathological gamblers tells us we have a tremendous problem. 
When you add the family members that are adversely affected, 
you have got a rather large number.
    There are eight research recommendations involving Health 
and Human Services agencies. Let me first just take a quick 
look at 8-4, 8-6 and 8-8. Pursuant to your earlier 
encouragement, NIMH has already invited research 
recommendations in the areas Dr. Hyman described. We hope that 
you will further encourage NIMH, within NIH, to also look at 8-
4, on youth; 8-6, on problem gamblers; and 8-8, on treatment 
outcomes. They would do a magnificent job and help the public 
and all policymakers. Then please look at 8-2 and 8-7.
    We respectfully recommended to you that you direct SAMHSA 
to undertake two bits of important research. One is to add 
gambling components to the National Household Survey on Drug 
Abuse. That is the only place where we can get the proper 
dimensions to really understand gambling disorder prevalence in 
this country.
    Then the second was 8-7, adding gambling questions to the 
Periodic Surveys of Mental Health Providers by SAMHSA. That is 
the only place where we are really going to be able to assess 
treatment outcomes.
    In closing, Mr. Chairman, the other recommendations that 
are affiliated with Health and Human Services could fit within 
some kind of intra-departmental working group if that is what 
this committee thinks ought to be constructed.
    Finally, the critical recommendation to the Department of 
Labor, that we study job quality. Part of the up side of legal 
gambling is that a lot of people have gotten better jobs. They 
have lifted the standard of living for their families, but we 
need to know a lot more about the quality of those jobs--
pensions, wage, security. It would help us in understanding the 
up side as well as the down side of legal gambling.
    Thank you, sir.
    Senator Specter. Well, thank you very much, Commissioner 
McCarthy.
    We have been joined by Senator Gorton, from Washington. Any 
comment you would like to make at this time, Senator Gorton?
    Senator Gorton. No, thank you, Mr. Chairman.
    Senator Specter. We turn now to Dr. Ken Winters, Director 
of the Center for Adolescent Substance Abuse, and Associate 
Professor of Psychiatry at the University of Minnesota. Dr. 
Winters also serves as a Senior Research Associate within the 
Department of Psychiatry at the University, and is currently 
directing a special project on youth gambling.
    Thank you for joining us, Dr. Winters, and we look forward 
to your testimony.
STATEMENT OF KEN WINTERS, Ph.D., DIRECTOR, CENTER FOR 
            ADOLESCENT SUBSTANCE ABUSE AND ASSOCIATE 
            PROFESSOR OF PSYCHIATRY, UNIVERSITY OF 
            MINNESOTA
    Dr. Winters. I also appreciate the invitation to be able to 
spend some time with this committee.
    I also served on the National Research Council's Committee 
that studied the impact of pathological gambling. We spent 
about a year reviewing the empirical literature. It was a 
report that was part of the Impact Commission's efforts. 
Sometimes that report, though, may get lost a little bit, 
because some of our research conclusions are a bit different 
from the Commission's. What I thought I would do is highlight 
three or four main themes from that report.
    The first has to do with the great need to increase public 
awareness about this complex disorder of problem and 
pathological gambling. I think one of the biggest stumbling 
blocks in educating the public about pathological gambling is 
this issue of volition. Clearly, there is a voluntary component 
to initial involvement in gambling. But as gambling progresses 
to a pathological and clinical level, the influence of some 
type of disordered motivational or drive state overwhelms the 
individual.
    This is very similar to what Dr. Hyman mentioned earlier as 
trying to study the neuroscience behind such behavioral 
disorders as pathological gambling, like we are doing in our 
studies of alcoholism and drug addiction. Science can play a 
key role in helping the public better understand this 
intersection of voluntary behavior and dysfunctional drive 
state. Various forums and models that have been used 
successfully by NIH could be harnessed in this effort.
    These examples include focusing a national issues forum on 
gambling in America, initiating town hall meetings to encourage 
a dialogue between the public and scientific community--I know 
the National Institute on Drug Abuse has done an excellent job 
with that kind of model--and increasing public awareness 
through the media.
    The second issue I want to raise also piggy-backs nicely 
with one of Dr. Hyman's comments. This has to do with the need 
to increase awareness among health care professionals about 
gambling problems in medical and psychiatric clients. One of 
the most reliable findings from our research literature review 
in the National Research Council's report was that pathological 
gambling is highly associated with other behavioral disorders, 
particularly depression, alcoholism and drug abuse.
    For example, the elevated risk for pathological gambling 
may be in the area of 10 to 15 times greater among those with a 
substance use disorder compared to those without such a 
disorder. But it is likely that pathological gambling goes 
undetected in the majority of these co-disordered cases because 
screening for gambling problems is not yet a routine part of 
clinical practice in the mental health and substance abuse 
fields.
    You may be aware of the NIAAA-sponsored program referred to 
Alcohol Screening Day. This is something that occurred, I 
think, in the month of May. This involved a national and 
coordinated initiative in which health centers all over the 
country focused for one day on screening for alcohol problems 
among medical patients, as well as those in the community who 
desired a free screening. A similar initiative, a problem 
gambling screening day, I think could go a long way toward both 
increasing the awareness of this problem among health 
professionals and providing us with a better indication of the 
true treatment need for this disorder.
    Now, the third and final issue pertains to some of my 
thoughts about the research needs. I think the single most 
important conclusion from the National Research Council's 
report is that we have only a fair scientific knowledge base in 
the prevalence of problem and pathological gambling, and we 
have a very dismal knowledge base in the other areas of 
science. Just in terms of the prevalence issue, since there are 
a lot of numbers that are thrown out, our report took a more 
conservative stance on the estimates of pathological gambling.
    There is a lot of dispute on how to measure it, how to 
define problem or pathological gambling. One could look at it 
as a spectrum of disorders. It would be analogous to saying, 
what is the rate of alcoholism; do we include in that 
definition heavy drinkers, those that meet abuse criteria and 
those that meet dependence criteria, or do we define it by just 
talking about the severe end, the dependence end?
    If you look at the severe end of the continuum and make 
estimates, our report concluded that about 1 percent of 
American adults suffer from a current--within the past year--
problem with pathological. That would be roughly 1.8 million 
adults. For adolescents, about 6 percent of them may suffer 
from a problem. And between the 12 to 18 age range, that would 
be about 1.1 million. It is important just to have that context 
in mind.
    But the other domains of research--etiology, social and 
economic impacts, prevention and treatment--we are not even 
close to having a fair scientific knowledge base. It is my 
understanding that the American Psychological Association will 
be initiating the Decade of the Behavior in the year 2000. I 
think this would be an excellent time to have NIH dedicate 
funds to gambling research, perhaps with matching funds from 
the industry, so that comprehensive and longstanding research 
programs can be developed.
    I am not interested in borrowing from Peter to pay Paul or, 
to put it another way, I am not interested in suggesting we 
borrow from Steve Hyman at NIMH and pay Allen Lechner at NIDA. 
But as a start, I think we should attempt to try to piggy-back 
on existing studies, where it would be very cost-efficient to 
add gambling variables, as well as to try to allocate some 
dedicated funds so that some of our most interested and 
brightest scientists can develop long-term and comprehensive 
research programs.
    Thank you for the time this morning.
    Senator Specter. Thank you, Dr. Winters. Thank you very 
much.
    Our next witness is Dr. Timothy Kelly, Executive Director 
of the National Gambling Impact Study Commission. Previously he 
served as Research Director and was Commissioner of Mental 
Health Retardation and Substance Abuse Services at the Virginia 
Department of Mental Health. He received a B.A. from Virginia 
Commonwealth University, a master's from Gordon Conwell 
Theological Seminary, and an M.S. and Ph.D. from Vanderbilt.
    Thank you for joining us, Dr. Kelly, and we appreciate your 
testimony.
STATEMENT OF TIMOTHY A. KELLY, Ph.D., EXECUTIVE 
            DIRECTOR, NATIONAL GAMBLING IMPACT STUDY 
            COMMISSION
    Dr. Kelly. Thank you, Chairman Specter, Senators. My 
pleasure to be with you today to discuss some of the research 
findings from the National Gambling Impact Study Commission.
    Let me begin with a message, if I could, from the 
Commission's Chairman, Kay James. She asked that I convey her 
gratitude for your timely response to this important topic, the 
role of gambling in America. She regrets not being able to 
attend due to long-scheduled prior commitments, but is 
confident that Commissioner McCarthy and I and the others here 
today can provide you with the information that you need in 
order to move ahead with these matters.
    Specifically, she is hopeful that you will find merit in 
the proposed research recommendations and that the appropriate 
agencies may soon begin to pursue this line of inquiry in a 
comprehensive manner. We are very encouraged with the interest 
that Dr. Hyman has expressed.
    On her behalf, thank you for the invitation to present this 
testimony.
    Chairman Specter, I want you to know that the research 
recommendations before us today were hammered out--and I mean 
hammered out--by a group of nine commissioners, who worked 
tirelessly to accomplish the charge given by Congress. That was 
to study the economic and social impacts, both positive and 
negative, of gambling in America today.
    As Commissioner McCarthy stated, the Commission dedicated 
almost half of our budget, about $2.5 million, to fund original 
research in this area that, to date, has been woefully under-
researched and underfunded. And I want to take the opportunity, 
as well, on behalf of the Commission, to thank Dr. Hyman and 
the NIMH for their support. They collaborated in some of the 
research that we performed, and we are very grateful for that.
    I believe that the resultant research that we produced 
significantly advances the body of knowledge on gambling's 
impacts, and that it provides a platform on which other 
researchers may begin to build. In fact, the Commission has 
decided to make our data available for any and all researchers 
who may want to pursue these issues. We are going to make sure 
that we archive it in a user-friendly way, including the actual 
data themselves, so that they can be drawn down actually from 
the Internet and used to continue the research that we have 
begun.
    However, after 2 years and many research reports that have 
been presented to our Commission, it became clear to the 
commissioners that we have only scratched the surface of what 
needs to be done. At least we know enough now to be able to ask 
the right questions. That is what these research 
recommendations actually are all about. These recommendations 
list the questions, or areas of research, that America must 
answer if she is to better understand the full scope and impact 
of gambling, both positive and negative.
    As executive director, I can attest to the hard work put 
forward by the Commissioners in developing these 
recommendations. But, even more importantly, I can joint 
Congressman Wolf and Commissioner McCarthy in reporting that 
these research recommendations were indeed unanimously 
supported. They constitute, therefore, a set of unanimously 
supported research recommendations in the context of the 
unanimously adopted report. Given the divergent points of view 
represented among our Commissioners, I think that tells the 
tale for the value of the research being called for today.
    I thank you for the opportunity, once again, to testify 
here this morning. I would be glad to answer any questions.
    Senator Specter. Thank you very much, Dr. Kelly.
    Our next and final witness is Mr. Leonard H. Tose, 
Philadelphian, graduate of Notre Dame University. In 1969, Mr. 
Tose bought the Philadelphia Eagles and took them to the Super 
Bowl after the 1980 season. In 1985, losses at Atlantic City 
casinos played a large part in his decision to sell the Eagles.
    Mr. Tose has been very active in charitable affairs. He 
started the Eagles Project on Fly for Leukemia, the Ronald 
McDonald House, funding of the Oncology Wing at Children's 
Hospital of Philadelphia. I have known Mr. Tose as a friend for 
many, many years, going back several decades. And when this 
subject came up, I called him and asked him to consider coming 
before the subcommittee to tell of his own personal 
experiences, and he has agreed to do so.
    We very much appreciate your being here, and look forward 
to your testimony.
STATEMENT OF LEONARD H. TOSE, PHILADELPHIA, PA
    Mr. Tose. Senator, I congratulate you for having this 
meeting, but I do not thank you for inviting me. You put me 
against scientists, doctors, lawyers. I do not know.
    Senator Specter. You still have the advantage, Leonard; 
they are only four of them. [Laughter.]
    Mr. Tose. My problem is that I am practical about these 
things.
    No. 1, and this is my opinion, which is not very 
scientific--I hope you will excuse me for that, gentlemen--the 
people that now have this problem are getting older. You are 
going to eliminate them when they die, because you are not 
going to change them, I do not think, with injections or 
lectures or so forth. My thoughts are simple. This teaching 
should start at the home, where the parents handle the child 
and tell them that it is not good.
    I heard today that because people are getting more money, 
they can lose more money. Well, that is an easy thing to say, 
but, you know, there has to be a way. The guys that are 
dedicated to gambling and killing themselves, they are going to 
die away. It is a new generation.
    Senator, speaking with some sort of shame, it is not any 
good to see that Pennsylvania has 8,000 outlets to sell lottery 
tickets. That should not happen. You get a habit of gambling 
with lottery, where families take 5 or 10 bucks or 20 bucks, 
and it gets more and more. I think the harm in this country is 
the lottery. People see you can win $100 million, but they do 
not know that it is 100 million to 1 that you will not win.
    I think, with all humility, which I do not possess much of, 
the attack should start with the lotteries. They should not be, 
because kids can walk in and buy those tickets. They will sell 
them to anybody. For Pennsylvania, I am ashamed to say--and I 
know you are--that they have 8,000 outlets where people can buy 
lottery tickets. I do not know the status or the numbers that 
other States have, but I guess they are comparable.
    You know, maybe this is heresy, but I would rather see 
gamblers go the casinos. They have got a better chance. At 
least they know the odds. They know what to do. If they did not 
drink there, it would not hurt them as much as it did me.
    I have some other notes I better look at before I get 
thrown out of here. [Laughter.]
    It is obvious that compulsive gambling is a sickness. I do 
not know how you cure that. All these gentlemen, who are 
professional doctors or whatever, or scientists, I do not know 
that they will ever come up with this either. Too many years 
have happened where we have not ever done that.
    Does not it really get back to how we are raised? I know I 
did not gamble when my father was active and alive. I would 
have been afraid to.
    Do we or do we not have to get to the families, to start to 
say this is wrong, this is bad, and have the States not have 
lotteries, where families, poor families or any kind of 
families, take part of their salaries out to go win this $100 
million, which they never do?
    If I have abused my time, I apologize. Thank you, Senator.
    Senator Specter. Mr. Tose, thank you.
    During the questioning session, we are going to come back 
to you and ask you about your own experiences.
    Mr. Tose. Yes, I will be happy to tell you about them. Then 
you will be sad when you hear them.
    Senator Specter. It is not an easy matter to discuss those 
things. But to the extent you feel comfortable, in one moment 
or two, we are going to turn to that subject.
    I would like to begin with a question, first, to Mr. 
McCarthy and Dr. Hyman. On page 16 of the executive summary of 
the Commission report refers to Note: ``In 1997 alone, State 
lotteries spent $400 million on advertising campaigns, some of 
which targeted people in impoverished neighborhoods.''
    Earlier this month, the Supreme Court of the United States 
came down with a decision that first amendment freedom of 
speech protections prohibited any limitation on advertising for 
gambling. Senator Reid talks about the enforcement of laws 
against illegal gambling, which is a matter of enormous 
importance. There have been allegations that organized crime 
deals with legalized gambling. Certainly organized crime deals 
with illegal gambling, something I saw a great deal of when I 
was District Attorney of Philadelphia. There have been many 
reports about mob activity in both legalized and illegal 
gambling.
    When the lottery was passed in Pennsylvania in 1972, I was 
District Attorney, and I took a strong public position in 
opposition to it, just as I responded a few weeks ago on the 
question of Pennsylvania gambling, thinking that it is a very 
heavy, indirect tax on the poor. These are very, very difficult 
issues.
    But when we talk about targeting people in impoverished 
neighborhoods and we talk about, as Dr. Winters did, a higher 
percentage of juveniles involved in gambling than adults, an 
initial concern that I would express and ask for your comments, 
Dr. Hyman, to what extent might we expect pathological, 
compulsive gambling, out of control gambling, to hit the people 
who are at the bottom rung of the socioeconomic scale, not 
well-educated, not able really to care for themselves?
    If gambling is legalized, they are going to be targeted. So 
that there is not a way to insulate any group, given the 
Supreme Court's decision. To what extent will there be an extra 
impact on those people, as the Commission put it, on 
impoverished neighborhoods?

                  impact on impoverished neighborhoods

    Dr. Hyman. Sir, I cannot predict, partly because of the 
lack of data. But we can look to the experience with tobacco, 
for example.
    Senator Specter. You cannot predict because of the lack of 
data, but you can get some data?
    Dr. Hyman. We can get data. But, more than that, we do know 
some things----
    Senator Specter. Could you get that through the National 
Institute of Mental Health?
    Dr. Hyman. Right. But we also know from tobacco----
    Senator Specter. NIH has $15.6 billion you have.
    Dr. Hyman. OK. But there are some very serious examples, 
actually, from tobacco, Senator Specter. We know--both access 
and glamorization of any product, even if people know at some 
level that it is harmful, does increase the risk of use. If we 
imagine--and I think it is fair to imagine--that a certain 
percentage of youth are going to be susceptible to getting 
captured; that is, from going to social gambling, as we have 
social drinking and social smoking, to a pathological state----
    Senator Specter. Do you have any speculation, Dr. Hyman, as 
to the people in impoverished neighborhoods, whether they would 
be greater targets for being pathological or chronic gamblers?
    Dr. Hyman. I can say that people in poverty are--especially 
youth--are at higher risk for many, many social ills. Again, I 
do not want to make up data that I do not have about gambling, 
but I think you can extrapolate from many other social ills----
    Senator Reid. If the chairman will yield.
    Senator Specter. Senator Reid, you will have a turn. Just a 
minute here. Let me have a round of questions, if you please.
    Senator Reid. But, Mr. Chairman, I was not going to--I just 
wanted to say that the last study on the National Commission 
Study on Gambling indicated just what you have said, that the 
more availability there is of gambling, the more people gamble. 
The poorer you are, the more tendency there is to gamble. That 
is in the prior report that was done by the Federal Commission.
    Senator Specter. Commissioner McCarthy, on this subject--
you have been in public policy for a long time and this is your 
section on the Commission--what suggestion would you have as to 
how we deal with it? This is a broad question? Senator 
Feinstein talked about a moratorium. We are looking at 
impoverished neighborhoods. We are looking at gambling as a 
source of revenue, a very regressive tax.
    While my yellow light is on, you can speak during the red 
one; it is not yours, it is mine. How would you approach this 
very important problem?
    Mr. McCarthy. Mr. Chairman, let me first address the 
question you started with on advertising. It is correct the 
U.S. Supreme Court has ruled that private sector gambling 
businesses may advertise freely as a form of free speech. But 
that does not necessarily pertain to lotteries or any other 
form of government-owned and operated gambling. Because they 
are a different animal, they have a higher accountability and 
responsibility to the public.
    I believe that advertising constraints could be placed on 
State-run lotteries or any form of tribal government-run 
lotteries, for that matter. So, on the issue of advertising, I 
think we still have very much in the open.
    Now, whether we are talking about private or public, one of 
the recommendations in here is 3-19, which recommends that 
States with lotteries reduce their sales dependence on low-
income neighborhoods and heavy players in a variety of ways, 
including limited advertising and numbers of sales outlets in 
low-income areas.
    In addition to that, one of the four research 
recommendations to the States--the very first and most 
important one--asks that each State, particularly where there 
is a lot of gamblers within their constituency, undertake an 
annual or, at a minimum, a biennial prevalence survey--very few 
States do prevalence surveys now; maybe a lot of them do not 
want the information--to identify how many problem and 
pathological gamblers there are and to look at the demographic 
profile of those gamblers. Because we could establish how many 
are low-income.
    Now, the information we have so far, Mr. Chairman and 
Senator Reid, is that the lowest of the income--those below 
$15,000 annual income--they do not gamble much because they do 
not have much money to gamble. The highest--I think it is over 
$75,000--they do not gamble very much. But between the $15,000 
and the $60,000 or $75,000, a lot of gambling occurs. Of course 
people, at $15,000, $20,000, $25,000 household income levels do 
not have that much disposable income.
    What we also found, sir, is on lotteries--and a lot of the 
State lotteries reject this--that about 5 percent of the people 
who buy lottery products, tickets, expend about 51 percent of 
the dollars in lotteries. What we want to know with the 
research we have requested the States to undertake is, looking 
at that 5 percent especially, what income levels are they in--
there is a lot of information we can ask about it, and how many 
problem and pathological gamblers there are in there.
    So there are a lot of untold questions--and Dr. Hyman does 
not need my defense at all; they are going to be examining a 
lot of critical areas--but there are other agencies, as I 
briefly suggested in my statement, sir, that will look at some 
of these other aspects, some of the very questions you raised.
    Senator Specter. Senator Reid.
    Senator Reid. Thank you, Mr. Chairman.
    Dr. Kelly, are you familiar with the previous report that 
was completed by--the one prior to the one that you have just 
completed, in the seventies?
    Dr. Kelly. I have certainly seen it, the 1976 report. I am 
not familiar with all of its details, but, yes, we have a copy 
of it.
    Senator Reid. But you are familiar with the findings that I 
related in my talking with the chairman here, that the report 
did say that the more availability there is of gambling, the 
more people gamble?
    Dr. Kelly. Certainly.
    Senator Reid. The poorer you are, the more tendency there 
is to gamble?
    Dr. Kelly. Certainly.
    Senator Reid. You would agree with those conclusions. I 
think, Mr. Chairman, that would answer part of the questions 
you did ask.
    Governor McCarthy, you are also aware that I think the 
largest advertisers in any type of gambling are the lotteries?
    Mr. McCarthy. Yes.
    Senator Reid. I mean they spent huge amounts of money with 
all their little trick questions about how much money you can 
make from lotteries.
    Mr. McCarthy. Yes.
    Senator Reid. Is that a fair statement that, as far as 
advertising, they do?
    Mr. McCarthy. That is a fair statement, Senator.
    Senator Reid. More than their share?
    Mr. McCarthy. Yes.
    Senator Reid. Did the Commission's research--in answer to 
my original question--the Commission did not explore illegal 
gambling, is that true?
    Mr. McCarthy. That is true.
    Senator Reid. If there were any additional studies done in 
the future, would you think that would be an appropriate 
avenue?
    Mr. McCarthy. As a matter of fact, Senator Reid, illegal 
gambling is included in a number of the research 
recommendations, that we looked at both illegal--and we are 
particularly concerned about youth gambling, because often the 
gateway into gambling is illegal gambling, by definition. 
Although an amazing number of States allow 18-year-olds to 
gamble in different forms, starting with lotteries.
    Senator Reid. Mr. Chairman, would it be OK now if Mr. Tose 
told us his story?
    Senator Specter. Sure.
    Senator Reid. Mr. Tose, would you tell us your experiences 
that you indicated earlier you wanted to give us?
    Mr. Tose. I started gambling, I guess, in college. Maybe in 
country clubs, we started to progress a little more in the 
amount of betting. I used to bet sports. Fortunately, when I 
bought the football team, I was not allowed to, so I did not 
bet on any sports.
    The casinos fascinate people like me and others.
    Senator Reid. When did you buy your football team, the 
Eagles?
    Mr. Tose. The seventies. I sold them in 1985.
    Do you have another question? Because I have forgotten the 
other one.
    Senator Reid. The original question was to explain your 
experiences with gambling.
    Mr. Tose. Well, you get trapped, you know. There is a 
famous saying amongst gamblers: I got to get even. But the only 
time you are even is before you started. There is no way you 
get even. You lose more and more. You lose your--and what I 
think has happened in some--maybe only a few--casinos, where 
they serve alcohol unlimited, they encourage you to drink. As 
you know, a gambler that is drinking is not a gambler at all. 
He is not a good gambler to begin with. That should be looked 
at.
    That came up before a member of the Federal court who ruled 
against me when I sued, saying that it was--I do not know what 
it was--how you were allowed to drink. You are not allowed to--
bartenders get put in jail for serving too many drinks. So I do 
not know. I never figured that out.
    Senator Reid. I am not personally familiar with your story. 
You lost a lot of money gambling?
    Mr. Tose. Did I lose a lot of money gambling? Yes, a lot.
    Senator Reid. You would agree with Kay James, who was 
Chairman of this Gambling Commission, that you are better off 
gambling in casinos rather than some of these other things like 
lotteries and things like that? You indicated that.
    Mr. Tose. I think so. But I have not heard it addressed at 
this meeting. I have not heard the people that bet sports, like 
football, baseball, basketball. You have not talked about them. 
Are they compulsive gamblers? I would think so.
    I believe sincerely in what I said. It has to start at 
home. It has to start with the family. It has to start with 
training. If you do not give your kids an allowance, they will 
not get in trouble, et cetera, et cetera.
    I do not know. I do not know that there is a cure. I hope 
there is. But certainly when States like Pennsylvania have 
8,000 outlets, and you say do not let the poor people have 
access, they sure in hell have access with 8,000 outlets.
    Senator Reid. Thank you, Mr. Chairman.
    Senator Specter. Thank you, Senator Reid.
    Mr. Tose, as you have just stated, you took the case court 
because you felt that it was wrongful conduct on the part of 
the casinos to serve unlimited quantities of alcohol to you as 
a customer, knowing that that would influence your gambling and 
your losses.
    Mr. Tose. Yes, sir.
    Senator Specter. You had very substantial wealth from a big 
trucking company, a family trucking business.
    Mr. Tose. Yes, sir.
    Senator Specter. When you bought the Eagles and sold the 
Eagles, there were big dollars. It is I think a matter of 
public record, but would you mind saying now how much you sold 
the Eagles for?
    Mr. Tose. I think $90 million, something like that.
    Senator Specter. Would you be willing to say what your 
gambling losses were overall?
    Mr. Tose. Before or after?
    Senator Specter. Both--before, during and after--all three.
    Mr. Tose. You will find that gamblers never like to tell 
what--it is not a question of tell; they like to forget what 
they lost, because they say, tomorrow, I will get them. So, I 
do not know, $40 million, $50 million. I do not know.
    Senator Specter. Big enough that it is hard to round off, 
when you talk about $40 million or $50 million.
    If you feel comfortable answering the question, Mr. Tose, 
would you consider yourself a compulsive gambler when you were 
at the casino, at the bar?
    Mr. Tose. Only when I had money.
    Senator Specter. Only when you had money.
    What do you think about the impact on, as the Commission 
characterized it, the people in impoverished neighborhoods? You 
have already suggested your answer by being very critical, as I 
agree with you, about the 8,000 outlets for lotteries in 
Pennsylvania. Is that targeting a group which is less able to 
protect itself?
    Mr. Tose. Yes, of course it does. But it is like saying to 
the kid you cannot smoke. He sends his brother in, who is 
older, or his friend, and he is of age, and so he smokes. If 
you are going to target areas where the poor people live, so 
you do not put in any of these lottery things, they will find a 
way. There is always a way to do it. You are not going to cure 
it by saying well, take it out of the poor people's district. 
If they want to gamble, they will find a way to bet that 
lottery.
    What concerns me--and I heard today that the--what puzzles 
me rather than concerns me--is I heard today that the States 
can put any kind of advertising they want. Someone suggested 
that they advertise against the lottery. Well, that is like 
taking bread out of your own mouth. They are not going to 
advertise against the lottery if they have 8,000 places to sell 
it.
    I would like to know some day what they do with this 
lottery money and where it goes. I once called them and asked 
them. I said, I am a senior citizen, what do I get as a benefit 
from the lottery? They said, well, we give you free bus 
service. I said, no, thank you. So I do not know the answers. 
If I knew the answers, I would tell you.
    Senator Specter. Well, all you can tell us, to the extent 
you feel comfortable doing so, would be your own personal 
experiences, and I think people can learn. You were very high 
flying with your Super Bowl Eagles.
    Mr. Tose. Yes.
    Senator Specter. $40 million to $50 million in losses. That 
tells a story. Can you give us some indication as to how you 
got these Eagles sucked in, a part of it, so that others who 
will be hearing what has happened to you might be able to be 
forewarned or guard against the so-called slippery slope?
    Mr. Tose. Yes, sir, I can give one thing: Do not drink when 
you gamble.
    Senator Specter. Did you find the drinking significantly 
impaired your capacity to restrain yourself?
    Mr. Tose. I was not good to begin with. It just made it 
much worse.
    Senator Specter. Would you consider yourself a compulsive 
gambler, Mr. Tose?
    Mr. Tose. Yes, sir.
    Senator Specter. To use the Commission's fancier word, 
pathological gambler, would you consider yourself that, Mr. 
Tose?
    Mr. Tose. No, I do not think I am ready to be put in a home 
yet. [Laughter.]
    Senator Specter. Well, I am not suggesting that.
    Mr. Tose. If you had suggested that, Senator, I would want 
to meet you in private. [Laughter.]
    Senator Specter. Leonard, I would not suggest that publicly 
or privately, but I am always glad to meet you in private.
    Dr. Winters, give us the definition of--Mr. Tose calls 
himself a compulsive gambler, and I do not wish to describe 
anything as sinister or opprobrious as the term 
``pathological.'' That is a term that doctors use. But how 
would you define the term ``pathological,'' because it is a 
term the Commission uses?
    Dr. Winters. Good question. It really has two essential 
features. One is the person engages in the gaming activities, 
in the betting, beyond their physical means, beyond their 
physical wealth--financial wealth, physical--and it leads to 
negative consequences in addition to the financial ones, 
usually social. So that can be interpersonal, with their 
spouse, with work, et cetera. So it is betting over one's head, 
and that leads to significant life consequences for the 
individual. Usually the person even recognizes that but they 
continue to engage in the behavior. So you have this----
    Senator Specter. My red light is on, but I had one other 
question for you, Dr. Kelly, before yielding to Senator Reid. 
That is, did your study comprehend the drinking issue, which 
Mr. Tose has eloquently testified to, about how it is a lure, 
how it is an impairment of capacity to gamble more and lose 
more?
    Dr. Kelly. I think it is fair to say that the Commissioners 
were very aware of that, the fact that alcohol flows very 
freely, for instance, on most casino floors, and that we have 
heard in the testimony given by many of those individuals who 
came to testify about their own gambling problems how the two 
intersected. But I do not believe we directly addressed that in 
our research.
    Senator Specter. Well, that is something perhaps Dr. Hyman 
can pick up.
    Dr. Hyman. Yes.
    Senator Specter. Mr. Tose litigated this, as he said. You 
have, in the confluences of the law, a lot of considerations. 
Where the law would say, well, if Mr. Tose, an adult, is going 
to gamble, he knows what he is doing. And if Mr. Tose is going 
to drink and gamble, he knows what he is doing.
    But there is another overarching principle. That is, if you 
have an institutional casino which makes a calculation on 
serving liquor, with a plan aforethought, malice aforethought, 
a legal concept, to encourage people to drink and to lose, to 
have impaired capacity, that there may be some liability. But, 
by and large, the individual responsibility, the assumption of 
the risk and contributory negligence and all those other fancy 
phrases which require a person to protect himself tend to 
dominate.
    Do you have one final comment, Dr. Winters?
    Dr. Winters. Well, let me just say two things. First, 
actually, the major research investment to the Alcoholism 
Institute is exactly on this point. It is on drugs and alcohol 
travelling with gambling. The other thing, to just underscore 
your point, Mr. Specter, is that people who are at risk for 
compulsive gambling are also at elevated risk, it appears, for 
drug and alcohol use. So, in some sense, the bar is already 
lower for them to get in trouble when there is availability of 
these substances.
    Senator Specter. Dr. Winters?
    Dr. Winters. Well, I know there has been discussion about 
lotteries, casinos, et cetera, and to what extent they are a 
risk for the development of pathological gambling. One of the 
things we have learned from interviewing pathological gamblers 
who are seeking treatment--that does not mean it is the 
representative sample of all pathological gamblers, but at 
least in treatment settings when we have this option--is that 
they talk about the action in the game.
    Many venues have high action games. Obviously casinos have 
high action games. Lotteries do, especially when the Powerball 
is up to $150 million. Sports betting, of course, can offer 
high action, as well. That is the games they prefer, and that 
is the games they lose their money on.
    That can cut across all venues. And that leads to questions 
of how would one regulate that or how would one perhaps even 
restrict the loss of debt across these venues. You may have to 
regulate it in different ways.
    The other issue is the legal age issue that has been raised 
a little bit here. There is wide variability across the 
country. Lotteries, though, are more available to 18-year-olds 
than casinos, although there are plenty of casinos that are 
available to 18-year-olds, as well. I know I thought that was 
one of the most interesting conclusions, or recommendations, 
from the Impact report, about raising the minimum age to 21, 
although you would have to do it uniformly or it would not 
really have much impact.
    Senator Specter. Senator Reid.
    Senator Reid. Thank you, Mr. Chairman.
    I say to Dr. Hyman, we have, I think, clearly established 
if you drink alcohol and drive, you are more likely to have an 
accident.
    Dr. Hyman. Absolutely.
    Senator Reid. So the fact is that the same would apply to 
casino gambling, is that not true?
    Dr. Hyman. Absolutely.

                        personal responsibility

    Senator Reid. You all were in the room when I talked 
earlier about our society, our having to take responsibility 
for the acts that we commit. As you know, there is a great 
tendency when someone does something bad, that you go back and 
find out if they were properly toilet trained and, you know, 
all those kinds of things.
    Dr. Hyman. We have stopped that, sir.
    Senator Reid. When did you do that, this morning?
    Dr. Hyman. The day before yesterday, sir. [Laughter.]
    No, but I do get your point.
    Senator Reid. I use the example, Dr. Hyman, of people going 
up, running up these debts. Now, I ask you personally if you 
have a friend that you borrow money--that is a friend and it is 
easy to borrow money from him, and you go to the bank and it is 
hard to borrow money from the bank and you have to sign papers, 
you are just as morally obligated to pay back your friend as 
you are the bank; is that not true?
    Dr. Hyman. Absolutely.
    Senator Reid. My whole problem with all this is that I 
think we are making excuses for people's personal conduct. And 
I think in your studies, I would just like you to make sure you 
take that into consideration.
    Dr. Hyman. I do not want to repeat myself, but I said at 
the outset I agree with you--we should never medicalize our 
society, so that we remove personal responsibility. I think 
that is absolutely critical. Indeed, Mr. Tose did not like the 
word ``pathological.'' In some sense that has this implication 
of undermining personal responsibility.
    I think, at the same time, there are people we have to 
worry about--and, again, with all due respect--and these are, 
first and foremost, people who have some other condition--for 
example, depression, especially older people, who find 
themselves trapped in gambling as a result of that condition; 
and second of all, youth. I think this gets to the legal age 
issue.
    We know--and I know, Senator Specter, again, I am 
extrapolating from what we know about tobacco and alcohol and 
actually youth violence, which is something else I know you are 
very interested in--if we can keep children away from these 
vices until after they are 21, the likelihood of them getting 
captured is much, much lower.
    Senator Reid. Just like cigarettes, is it not?
    Dr. Hyman. Just like cigarettes.
    So we do not yet have the data about gambling. But I would 
imagine that it would turn out to be very, very similar. So if 
we can focus much of our effort on people who have an impaired 
ability to resist these behavioral impulses, and on young 
people, I think we would do an enormous public health service.
    Senator Reid. I would just say in closing, Mr. Chairman, 
because I think we have talked about this at length, the casino 
industry, the legitimate, legalized casino industry, they have 
spent money, and are continuing to do so, to help fund referral 
hotlines, pay money for treatment groups, and other programs 
for awareness of people about these issues. I think that is 
important that they continue to do that.
    I would say on behalf of the gambling that I represent, 
which is simply the State of Nevada, that we welcome the 
Federal Government getting involved in this in any way that 
they feel appropriate, to better understand problem gamblers. 
It is something we have been involved in. As I indicated in my 
opening statement, in the last few years we have spent $7 
million on that. I think it is good that the Federal Government 
is getting involved. Certainly there is no objection from the 
gaming industry to do this.
    Dr. Hyman. If I might, Mr. Chairman, I would just like to 
underscore your point, because it is one of the things you have 
touched on. It is something that actually Senator Specter I 
know is interested in, in other areas, which has to do with the 
Internet and other access. I think if we are really going to do 
the best possible public health service for our youth, we 
cannot compartmentalize and just think about access to State 
lotteries, but we also have to think about the broad access 
that we believe exists to illegal gambling and also the issue 
now of potentially unrestricted gambling on the Internet for 
our youth.
    Senator Specter. Thank you very much, Senator Reid. And 
thank you, gentlemen.
    Mr. Tose. Senator, I think it would be unfair for me to 
characterize all casinos. I did not intend to say that. I think 
they are in the minority of forcing or offering liquor at the 
time of gambling. It does not apply to all casinos wherever you 
are.
    Senator Specter. Well, thank you for that addition.
    Gentlemen, thank you very much for coming in.
    Mr. McCarthy and Dr. Kelly, the work of the Commission is 
very important and there are a lot of ramifications. And the 
subcommittee wanted to get an early start, because we have a 
very short window between now and the time we will be writing 
our appropriations bill. The National Institutes of Health have 
very substantial funds for gambling addiction research. We are 
looking to try to have an increase in the overall NIH funding, 
which will help them even further. This is a problem of 
enormous importance.
    I thank Mr. Leonard Tose especially for coming in today and 
telling us about his own experiences. Mr. Tose has been a very 
highly visible member of really the national community, but 
especially Pennsylvania, and Philadelphia, when he owned the 
Eagles and when he has had the difficulties with gambling, and 
a man of great wealth and great ability. To lose $40 million to 
$50 million is a very, very difficult situation.
    There are not many people who have the capacity or ability 
to lose that kind of money. But if you are at the lower end of 
the socioeconomic schedule, his situation dramatizes it. He 
accepts the term ``compulsive gambler.''
    When Dr. Winters tells us about the young people, we are 
very concerned about that. Dr. Hyman mentions the issue of 
juvenile violence, which this subcommittee is looking at 
especially. We are going to target that with funds, although 
limited, with the Department of Health and Human Services, with 
the NIMH and the Surgeon General; and Labor, with the Youth 
Corps; and Education, with many of their programs. We are in a 
position to redirect some very substantial funding, considering 
that, in Surgeon General Koop's words, it is a national health 
problem. Gambling comes into the picture. It is all a 
composite.
    So I think this was a very good start, and we are going to 
take a very close look at the issue. Congress will have a lot 
to say. They will be listening to what we say in State 
capitals, like Harrisburg, where they are considering 
legalizing gambling. I think it would be a very difficult 
matter if the riverboats come up the Delaware and dock in 
Philadelphia and seek our revenue sources in a very regressive 
tax. But this is something we really have to work through as a 
national community.

                         conclusion of hearing

    Thank you all very much for being here, that concludes our 
hearing. The subcommittee will stand in recess subject to the 
call of the Chair.
    [Whereupon, at 11 a.m., Wednesday, June 30, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                  <ALL>

</pre></body></html>
